                                      National Science Foundation
                                           4201 Wilson Boulevard
                                          Arlington, Virginia 22230


Office of Inspector General


MEMORANDUM

DATE:

TO:                Bradley Poston, Interim Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Deborah H. Cureton
                   Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. 06-1-011, Raytheon Polar Services Company’s Failure
         to File Required Cost Accounting Disclosure Statement

In response to your request for audit support of the Raytheon Polar Services Com pany (RPSC)
Fiscal Year (FY) 2000 to 2004 incurred cost         proposal subm ission of costs claim ed under
Contract No. DACS-OPP-0000373, we ha ve coordinated a series of audits to be perform ed by
the Defense Contract A udit Agency (DCAA), He rndon Branch Office. Attached is the final
audit report dated November 18, 2005, on RPSC’s noncompliance w ith contractual and federal
requirements to file a statement disclosing its cost accounting practices.

As background, previously we reported to you 1 that DCAA found that RPSC did not com ply
with Cost Accounting Standard 418, which requires that RPSC consistently classify costs on the
United States Antarctic Program (USAP) contract as stated in its Co st Accounting Standards
Board (CASB) Disclos ure Sta tement. RPSC was includ ed in the Dis closure Sta tement of its
parent com pany, Raytheon Technical Services Co mpany (RTSC), and did not have a separate
Disclosure Statement. However, since the inception of the USAP contract through December 31,
2004 (five y ears), RPSC did not co mply with RT SC’s disclosed acco unting practices, resulting
in RPSC incorrectly claim ing approximately                   for the period F iscal Years (FY)
           2
2000-2002.

In addition, as discussed in the attached audit report, DCAA found t hat, effective January 1,
2005, Raytheon rem oved RPSC from the RTSC pare nt company CASB Disclosure Statem ent.
This rem oval resulted in RPSC perfor ming the USAP contract without any CASB Disclosure
Statement to describe its cost accoun ting practices, contrary to Federal Acquisition Regulations
and the USAP contract. W ithout a Disclosure Statement, NSF lacks a common understanding
with RPSC of the basis for determining the correctness and accuracy of billings to NSF.

1
  NSF OIG Audit Report No. 06-1-001 dated March 21, 2006—Audit of Raytheon Polar Services Company’s
Noncompliance with Cost Accounting Standard 418, Allocation of Direct and Indirect Costs for Fiscal Years 2000
to 2002
2
  The incorrect amount claimed for FY 2003 and 2004 will soon be reported to you in a separate NSF OIG Audit
Report.
On April 5, 2006, subsequent to completing this audit, Defense Contract Management Agency
(DCMA) cited RTSC with an initial fi      nding of noncomplian ce with CASB 9903.202-1,
Disclosure Statement General Requ irements for failing to disclose the cost accounting practices
of RPSC in a CASB Disclosure Statem ent. In response, Raytheon sub mitted on April 17, 200 6,
an initial CASB Disclosure Statement for RPSC, retroactively effective to January 1, 2005.

However, despite the f act tha t this Disclosure Statem ent describes changes in disclosed and
established cost accounting practices which RPSC proposes to use in the perform ance of the
USAP contract, RPSC did not submit the associat ed cost im pact proposal required by Federal
regulations for any change in cost accounting pr actice. As a result, DCMA will request that
RPSC submit a cost impact pro posal that identifies th e cost impact of the chang es on the NSF
contract from the tim e of change (January 1, 2005) until the anticipated com pletion of the
contract.

We recommend that NSF’s Direct or of the Division of Acqu isition and Cooperative Support
(DACS) coordinate with and allow DCMA to take the lead in obtaining the required cost im pact
proposal and in determining if the April 17, 2 006 Disclosure Statem ent adequately describes
RPSC’s cost accounting practices and complies with the Cost Accounting Standards.

We consider the issue in the DCAA audit repo rt to be significant. Accordingly, to help ensure
findings are resolved within six m onths of issu ance of the audit report, please coordinate with
our office during the resolution    period to develop a mutually       agreeable audit reso lution
memorandum.

We are providing a copy of this m emorandum to th e Director of the Office of Polar Program s.
However, since the responsibility for audit resolution rests with DACS, we ask that no action be
taken concerning the report’s findings without first consulting DACS at (703) 292-8242.


OIG Oversight of Audit

To fulfill o ur responsib ilities under Governm ent A uditing Standards, the Office of Inspecto r
General:

   •   Reviewed the audit rep ort prepared by DCAA to ensure co mpliance with Government
       Auditing Standards and Office of Management and Budget Circulars; and

   •   Coordinated issuance of the audit report to NSF.

DCAA is responsible for the attached auditor’s report on RPSC and the conclusions expressed in
the report. The NSF OIG does not express any op inion on the conclusions presented in DCAA’s
audit report.

We also want to bring to your attention that DCAA has briefly discussed the results of several
other audits performed at RTSC or Raytheon Corporate Headquarters beginning on page 6 of the
attached DCAA report. Many of the reports have information that may be useful to NSF in



                                                2
administering its USAP contract with RPSC. If NSF desires a copy of any of the referenced
DCAA reports, please contact Kenneth Stagner at (303) 312-7655 or David Willems at (703)
292-4979.

We thank your staff for the assistance that was extended to us during the audit. If you have any
questions about this report, please contact Jannifer Jenkins at (703) 292-4996, Kenneth Stagner,
or David Willems.


Attachment: DCAA Report No. 6161-2005T19200303, dated November 18, 2005

cc: Thomas Cooley, Director, BFA
    Mary Santonastasso, Director, DIAS
    Karl Erb, Director, OPP




                                                3
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 6161-2005T19200303

                                                        November 18, 2005

PREPARED FOR: Director
              ATTN: DCMDE-GVOG (                                   )
              DCMA - Virginia
              10500 Battleview Parkway, Suite 200
              Manassas, VA 20109-2342

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 315
                  Building 2, 3rd Floor
                  Herndon, VA 20170
                      Telephone No.
                      FAX No.
E-m                        ail Address

SUBJECT:          Report on Audit of Noncompliance with Cost Accounting Standards
                  Board (CASB) 9903.202-1, Disclosure Statement General Requirements -
                  Raytheon Polar Services Company

CONTRACTOR:       Raytheon Technical Services Company (Cage Code 05WG2)
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 18
                                                                                  Page
CONTENTS:         Subject of Audit                                                   1
Executive                    Summary                                                 1
                  Scope of Audit                                                     1
                  Results of Audit                                                   2
                  Contractor Organization and Systems                                5
                  DCAA Personnel and Report Authorization                           17
                  Audit Report Distribution and Restrictions                        18
Appendix                                                                            20
Audit Report No. 6161-2005T19200303

                                     SUBJECT OF AUDIT

        By submitting a CAS disclosure statement, Raytheon Technical Services Company,
(RTSC) asserts that its disclosed cost accounting practices used to estimate, accumulate, and
report costs incurred or to be incurred on Government contracts comply with the CAS Board
rules, regulations, and standards appearing in 48 C.F.R. Chapter 99. We examined the subject
disclosure statement to evaluate whether the disclosed cost accounting practices comply with the
CAS Board rules, regulations, and standards. We also examined the disclosed practices to
evaluate whether they comply with applicable FAR Part 31 requirements. The contractor is
responsible for compliance with CAS and FAR requirements. Our responsibility is to express an
opinion on compliance based on our examination.


                                  EXECUTIVE SUMMARY

        RTSC disclosed and established cost accounting practices are in noncompliance with
CASB 9903.202-1, Disclosure Statement General Requirements. Specifically, effective
January 1, 2005, RTSC Raytheon Polar Services Company (RPSC) business unit does not have a
separate disclosure statement to describe its unique cost accounting practices used to account for
direct and indirect costs.


                                      SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the contractor has complied with the requirements referred
to above. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the cost accounting practices;
       •   assessing the descriptions of the cost accounting practices which, when implemented,
           should be compliant with applicable requirements; and
       •   evaluating the overall disclosure statement presentation.

       We evaluated the contractor’s disclosed cost accounting practices using the applicable
requirements contained in the:

       •   Federal Acquisition Regulation (FAR); and
       •   CAS Board rules, regulations, and standards.
Audit Report No. 6161-2005T19200303

        Our examinations of RTSC’s Control Environment, SAP Accounting System and EDP
General Controls and Related Internal Controls resulted in adequate determinations. The control
risk assessments for RTSC’s Control Environment, SAP Accounting System and EDP General
Controls and Related Internal Controls were found to have no bearing on the originating
disclosure statement examination; accordingly, we assessed control risk as low with a minimum
level of substantive testing. Incidentally, our control risk assessment was unchanged as a result
of the completed internal control examinations discussed above. The scope of our examination
reflects our assessment of control risk and includes audit tests designed to provide a reasonable
basis for our opinion.

        Our examination does not provide a legal determination on RTSC compliance with the
specified requirements.


                                    RESULTS OF AUDIT

       In our opinion, during this period (January 1, 2005 through the current date) the
contractor was in noncompliance with CASB 9903.202-1, Disclosure Statement General
Requirements. As of the date of this report, the condition causing the noncompliance has not
been corrected.

       This report is limited to the cited instance of noncompliance. Accordingly, we express
no opinion on whether other practices are proper, approved, or agreed to for pricing proposals,
accumulating costs, or reporting contractor performance data.


               STATEMENT OF CONDITION AND RECOMMENDATION

       Our examination identified a disclosed and established contractor practice which we
believe is in noncompliance with the Cost Accounting Standards, as follows:

CONDITION:



                                                                 . While we agree with this
change, RTSC has not yet submitted a separate disclosure statement effective January 1, 2005,
for Raytheon Polar Services Company (RPSC) cost accounting practices in order to comply with
CASB Part 9903.202-1, General Requirements. Specifically, CASB Part 9903.202-1(b) (1)
states:

                                                2
Audit Report No. 6161-2005T19200303

       “Any business unit that is selected to receive a CAS-covered contract or subcontract of
       $50 million or more shall submit a Disclosure Statement before award.”

       Furthermore, CASB Part 9903.202-1(c) states:

       “When a Disclosure Statement is required, a separate Disclosure Statement must be
       submitted for each segment whose costs included in the total price of any CAS covered
       contract or subcontract exceed $500,000, unless (i) The contract or subcontract is of the
       type that is exempted by 9903.201-1 or (ii) in the most recently completed cost
       accounting period the segment’s CAS-covered awards are less than 30 percent of total
       segment sales for the period and less than $10 million.”

RECOMMENDATION:

        We recommend that the contractor formally submit a disclosure statement for RPSC. The
significance of RTSC not submitting a separate disclosure statement for RPSC to disclose the
cost accounting practices that differ from those of all other RTSC business units resulted in
recent questioned costs and a CAS 418 noncompliance that were identified during our incurred
cost audits for RPSC for FY 2000 through FY 2002. Should the contractor continue to fail to
submit a separate disclosure statement for RPSC, additional questioned costs may result from
our incurred cost audits for RPSC for FY 2003 and FY 2004 scheduled for performance later this
fiscal year.

CONTRACTOR’S REACTION:

      The contractor’s written response to our condition and recommendation is included as an
appendix to this report, and summarized within this section of the report.

        The contractor indicated that RTSC and its customer, National Science Foundation
(NSF), are in the process of discussing the DCAA audit findings; the construct of the ‘Polar
Services’ contract; and the practices of accumulating and billing of costs. The contractor also
indicated its intention not to submit an RPSC disclosure statement until after discussions with
NSF are complete. No timeframe was provided for anticipated submission.

AUDITOR’S RESPONSE:

       The contractor’s response did not include any information to change our opinion.
Accordingly, we continue to recommend the contractor formally submit a separate disclosure
statement for RPSC in accordance with the express general requirements enumerated within
CASB Part 9903.202-1.

                                                3
Audit Report No. 6161-2005T19200303

       We discussed the results of our examination with                      , RTSC Business
Governance Manager, in an exit conference held on September 19, 2005. We provided a draft
copy of the Statement of Condition and Recommendation to the RTSC Controller on
August 16, 2005. In response to our findings, the contractor neither agreed nor disagreed that
RTSC is in noncompliance with CAS. The Contractor’s Reaction section of this report includes
a synopsis of the contractor’s response. Also, the complete text of the contractor’s response
dated September 14, 2005 is included as an appendix to this report.




                                              4
Audit Report No. 6161-2005T19200303

                  CONTRACTOR ORGANIZATION AND SYSTEMS

I.    Organization

      RTSC headquarters is located in Reston, VA.




                                            5
Pages 6-16 have been redacted in their entirety.
Audit Report No. 6161-2005T19200303

                                      DCAA PERSONNEL

Telephone                                                                    No.
Primary contacts regarding this audit:




Other contact regarding this audit report:



                                                                FAX No.
         Herndon Branch Office

                                                                E-mail Address
         Herndon Branch Office

General information on audit matters is available at http://www.dcaa.mil/.

AUDIT REPORT AUTHORIZED BY:


                                                    /Signed/


                                                    Branch Manager
                                                    DCAA Herndon Branch Office




                                               17
Audit Report No. 6161-2005T19200303

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
 E-m                                                      ail Address
Director
ATTN: DCMDE-GVOG (                                 )
DCMA - Virginia
10500 Battleview Parkway, Suite 200
Manassas, VA 20109-2342

Defense Corporate Executive
ATTN:                     , DCMDI-RO/Raytheon
Defense Contract Management Agency (DCMA)
2 Wayside Road
Burlington, MA 01803-0901

Raytheon Corporate Resident Office
ATTN:                     , CAS Technical Specialist
47 Foundry Avenue
Waltham, MA 02453-8313

National Science Foundation
ATTN:
Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

Raytheon Technical Services Company                    (Copy furnished through the DACO)

RESTRICTIONS




                                            18
Page 19 has been redacted in its entirety.
Audit Report No. 6161-2005T19200303

                                                             APPENDIX

                       Raytheon Technical Services Company
                                 Reston, Virginia

                     CONTRACTOR’S WRITTEN RESPONSE




                                       20
September 14, 2005



          To:               Defense Contract Audit Agency
  Attn                          :
  17                          1 Elden Street
  Her                          ndon, VA 20170


          Subject:          Adequacy and Compliance Examination
                            RTSC B usiness U nit Di sclosure Statement R evision 12 dated M arch 2 3, 2 005, a nd DRAFT
                            Revision 12a dated August 15, 2005, both effective January 1, 2005

          Reference:        Report 05-03L-031, dated August 16, 2005
                            6161-2005T19200301




 Over the past six months RTSC has been in discussion with the National Science Foundation (NSF) regarding the DCAA
 audit findings. The major topic has been the construct of the contract and the practices of accumulating and billing of costs.
 The discussions have been very positive and we believe that the basic understanding is forthcoming.

 We believe that it is most efficient to complete the discussions with the NSF prior to submitting the RPSC Disclosure
 Statement. We will keep you informed as we progress in the process.

 RTSC appreciates your patience in this matter.

 If you have any questions please feel free to contact me.


 Sincerely,




 Cc:
